No. ______
In the

Supreme Court of the United States
__________________
BERNARD MCLAUGHLIN,
v.

Petitioner,

NATIONAL ELEVATOR INDUSTRY HEALTH BENEFIT
PLAN BOARD OF TRUSTEES,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
Steven L. Kessel
Counsel of Record
Drazin & Warshaw, P.C.
25 Reckless Place
P.O. Box 8909
Red Bank, NJ 07701
(732) 747-3730
slkessel@drazinandwarshaw.com

Counsel for Petitioner
August 7, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
1. After Third Circuit had affirmed an Order in favor
of an ERISA plan by recharacterizing it as a
monetizing of a lien rather than a personal money
judgment, did the Court err by not correcting the
ERISA Plan’s misuse of that Order when the Plan
docketed it under a state law available only for money
judgments, contrary to ERISA’s prohibition on relief at
law.
2. Did the Third Circuit err by not permitting the
Participant discovery on whether the Plan’s
withholding of benefits as a set-off had reached the
point whether his indebtedness to the Plan had been
satisfied.

ii
LIST OF ALL PARTIES
The parties are as they appear in the caption and
consist of the trustees of a qualified ERISA Plan, the
National Elevator Industry Benefit Plan, and the
Plan’s participant, Bernard McLaughlin.
LIST OF ALL PROCEEDINGS
1. Board of Trustees of the National Elevator Industry
Health Benefit Plan v. Bernard McLaughlin, Civ. No.
12-4322 (D.N.J. January 21, 2014), aff’d No. 14-1308
(3d Cir. October 1, 2014), cert. denied, Bernard
Mclaughlin v. Board of Trustees of the National
Elevator Industry Health Benefit Plan, 135 S. Ct. 1405
(2015)
2. Board of Trustees of the National Elevator Industry
Health Benefit Plan v. Bernard McLaughlin, Civ. No.
12-4322 (D.N.J. February 8, 2016), aff’d No. 16-1352
(3d Cir. January 6, 2017)
3. Bernard McLaughlin v. Board of Trustees of the
National Elevator Industry Health Benefit Plan, Civ.
No. 3:16-3121 (D.N.J. October 13, 2016), aff’d No. 164108 (3d Cir. April 11, 2017).
4. Board of Trustees of the National Elevator Industry
Health Benefit Plan v. Bernard McLaughlin, Civ. No.
12-4322 (D.N.J. December 20, 2017), aff’d No. 18-1083
(3d Cir. May 21, 2019)

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
LIST OF ALL PARTIES . . . . . . . . . . . . . . . . . . . . . . ii
LIST OF ALL PROCEEDINGS . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION IN SUPREME
COURT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF CASE . . . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(May 21, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Order in the United
States District Court, District of New
Jersey
(December 20, 2017) . . . . . . . . . . . App. 7
Appendix C Notice to Judgment Debtor in the
Superior Court of New Jersey and
Judgment Search Record
(August 2, 2017) . . . . . . . . . . . . . App. 18

iv
Appendix D Opinion in the United States Court of
Appeals for the Third Circuit, No. 164108
(April 11, 2017) . . . . . . . . . . . . . . App. 20
Appendix E Opinion in the United States Court of
Appeals for the Third Circuit, No. 161352
(January 6, 2017) . . . . . . . . . . . . App. 32
Appendix F Opinion and Order in the United
States District Court, District of New
Jersey, No. 16-3121
(October 13, 2016) . . . . . . . . . . . . App. 38
Appendix G Opinion and Order in the United
States District Court, District of New
Jersey
(February 17, 2016) . . . . . . . . . . App. 56
Appendix H Judgment in the United States
District Court, District of New Jersey
(December 21, 2015) . . . . . . . . . . App. 64
Appendix I Opinion in the United States Court of
Appeals for the Third Circuit, No. 141308
(October 1, 2014) . . . . . . . . . . . . . App. 66
Appendix J Opinion, Order and Judgment in the
United States District Court, District
of New Jersey
(January 24, 2014) . . . . . . . . . . . App. 76

v
TABLE OF AUTHORITIES
CASES
Aetna Health v. Davila,
542 U.S. 200 (2004). . . . . . . . . . . . . . . . . . . . . . . 13
Funk v. CIGNA,
648 F.3d 182 (3d Cir. 2011) . . . . . . . . . . . . . . . 6, 8
Great-West Life v. Knudsen,
534 U.S. 204, 122 S. Ct. 708 (2002) . . . . . . . . . . . 9
Montanile v. Board of Trustees of National Elevator
Industry Health Benefit Plan,
136 S. Ct. 651 (2016). . . . . . . . . . . . . 6, 8, 9, 10, 11
Perriera v. Rediger,
778 A.2d 429 (N.J. 2001) . . . . . . . . . . . . . . . . . . . 4
Sereboff v. Mid Atlantic Medical Services,
547 U.S. 356, 126 S. Ct. 1869 (2006) . . . . . . . . . . 9
Sunderland v City of Philadelphia,
575 F.2d 1089 (3d Cir. 1978) . . . . . . . . . . . . . . . 13
Thurber v. Aetna Life Ins. Co.,
712 F.3d 654 (2d Cir. 2013) . . . . . . . . . . . . . . . . . 8
STATUTES
28 U.S.C.S. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C.S. § 1132 . . . . . . . . . . . . . . . . . . . . . . . . . . 13
29 U.S.C.S. § 1132(a)(3)(B)(ii) . . . . . . . . . . . . . . . . 1, 9
N.J. Stat. Ann. 2A:16-11 . . . . . . . . . . . . . . 1, 2, 10, 11
N.J. Stat. Ann. 2A:16-18 . . . . . . . . . . . . . . 2, 3, 10, 11

vi
N.J. Stat. Ann. 2A:49A-26 . . . . . . . . . . . . . . . . . . . . 10
N.J. Stat. Ann. 2A:49A-27 . . . . . . . . . . . . . . . . . . . . 10
N.J. Stat. Ann. 46:26A-2 . . . . . . . . . . . . . . . . . . . . . 11
N.J. Stat. Ann. 46:26A-4 . . . . . . . . . . . . . . . . . . . . . 11
RULES
Fed.R.Cv.P.60(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . 12
Fed.R.Cv.P.60(b)(5) . . . . . . . . . . . . . . . . . . . . . . 13, 14
Fed.R.Cv.P.60(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . 14
Fed.R.Cv.P.60(c) . . . . . . . . . . . . . . . . . . . . . . . . . 12, 14

1
OPINIONS BELOW
The Third Circuit’s opinion is unreported and
reproduced at App.1-6. The district court’s opinion and
order are unreported and reproduced at App.7-17.
BASIS FOR JURISDICTION
IN SUPREME COURT
The Third Circuit’s rendered it opinion on May 21,
2019. No orders have been entered respecting
rehearing or granting an extension of time to file the
within petition. This Court’s jurisdiction is invoked
under 28 U.S.C.S. § 1254(1).
STATUTES
Tile 29 United States Code § 1132(a)(3)(B)(ii) states:
A civil action may be brought-*****
(3) by a participant, beneficiary, or fiduciary
(A) to enjoin any act or practice which violates
any provision of this subchapter or the terms of
the plan, or (B) to obtain other appropriate
equitable relief (i) to redress such violations or
(ii) to enforce any provisions of this subchapter
or the terms of the plan;
N.J. Stat. Ann. 2A:16-11 states:
The Clerk of the Superior Court shall keep a
book known as a civil judgment and order docket
in which shall be entered, an abstract of each
judgment or order for the payment of money,
submitted for entry, including a judgment or

2
order to pay counsel fees and other fees or costs,
entered from, or made in, the Superior Court. A
judgment of the Special Civil Part of the Law
Division shall not be entered unless it is
docketed in the manner specifically provided for
Special Civil Part judgments. A judgment or
order for the payment of money is one which has
been reduced to a fixed dollar amount. Any
judgment for periodic payments where a total
amount has not been fixed shall not be
considered as having been reduced to a fixed
dollar amount unless a judgment fixing
arrearages has been entered. The entry required
by this section shall constitute the record of the
judgment, order or decree and a transcript
thereof duly certified by the clerk of the court
shall be a plenary evidence of such judgment,
order or decree.
The clerk shall also make an entry upon the civil
judgment and order docket indicating the nature
of every judgment or order and an entry on
return showing execution of process and the date
when such judgment or order was entered.
N.J. Stat. Ann 2A:16-18 states:
Every judgment, or order for the payment of
money, entered in the Superior Court, Chancery
Division, from the time of its entry upon the civil
judgment and order docket, and every decree or
order for the payment of money, of the former
court of chancery, from the time it was signed,
shall have the force, operation and effect of a
judgment of the Superior Court, Law Division,

3
and execution may issue thereon as in other
cases.
STATEMENT OF CASE
This is an ERISA subrogation case that has been
before the Third Circuit four times and that has
resulted in the entry of a personal judgment against
the participant, who never recovered medical expenses
as an element of damages in his tort case, and which
the Plan is now setting up for personal execution by
docketing the judgment despite failing to credit
employer contributions to the health plan against the
indebtedness, all contrary to ERISA.
The plaintiff is a self-funded ERISA plan and the
defendant is a participant in that plan who obtained a
product liability settlement against which the Plan
asserted a lien for medical expenses that it paid. The
Third Circuit had affirmed what would ordinarily be a
money judgment against the Participant by
recharacterizing it as the monitorization of a lien, so as
to avoid ERISA’s prohibition against legal remedies.
The Plan then docketed the Order under state laws
available only for money judgments, thereby giving the
Order those same characteristics of a personal money
judgment that the Third Circuit ostensibly stripped
from it, and transforming the order for a lien into an
order for a money judgment that ERISA does not
empower federal courts to enter. The Third Circuit
refused to correct this misuse of its Order, contending
that the Participant waited too long between the
August 2, 2017 docketing of the Order and filing his
motion for relief, which was denied by the District
Court on December 20, 2017.

4
The Plan is withholding payment of medical
expenses as a set-off against the Participant’s
indebtedness while still collecting employer
contributions on behalf of the Participant. The Third
Circuit also denied as time-barred the Participant’s
requested for discovery to determine whether the
collecting contributions exceed the amount of
indebtedness. Plaintiff petitions for certiorari from the
Third Circuits’ toleration of a misuse of its order that
brought it outside the scope of relief that federal courts
are statutorily authorized to award by ERISA, and
from the Third Circuit’s toleration of the Plan’s unjust
enrichment at the expense of the Participant and his
employer.
The defendant had intentionally, and on notice to
the Plan, excluded medical expenses as an element of
damages in his product liability case (App. 69) because
he has no duty to protect the Plan’s interests in the
personal injury case and consistent with state
collateral source rules, Perriera v. Rediger, 778 A.2d
429 (N.J. 2001). The Plan asserted a lien against that
recovery nonetheless and the District Court entered an
Order on January 24, 2014 for judgment in favor of the
Plan. (App. 76) The United States Court of Appeals for
the Third Circuit affirmed (App. 66) and the United
States Supreme Court denied certiorari. Board of
Trustees of the Nat’l Elevator Industry Health Benefit
Plan v. McLaughlin, 590 Fed.Appx. 154 (3d Cir. 2014)
cert. denied __ U.S. __, 135 S. Ct. 1405 (2015)
(hereinafter “McLaughlin I”). The Order that was
entered by the District Court did not reduce the Plan’s
claim to a sum certain. It read:

5
ORDERED that the motion of Plaintiff Board
of Trustees of the National Elevator Industry
Health Benefit Plan for summary judgment,
(Doc. No. 20), is GRANTED; and it is
ORDERED that the motion of Defendant
Bernard McLaughlin for summary judgment,
(Doc. No. 22), is DENIED; and it is
ORDERED that JUDGMENT be entered in
favor of Plaintiff Board of Trustees of the
National Elevator Industry Health Benefit Plan.
(App. 87-88)
Because this Order is incapable of execution, the
Plan induced the District Court to enter another Order
on December 21, 2015, without filing a formal motion.
That Order read:
ORDERED that Plaintiff the Board of
Trustees of the National Elevator Industry
Health Benefit Plan recover from the Defendant
Bernard McLaughlin the amount of forty five
thousand three hundred forty-seven dollars and
eighty-nine cents ($45,347.89); and it is
ORDERED that Judgment be entered in
favor of Plaintiff Board of Trustees of the
National Elevator Industry Health Benefit Plan.
(App. 64-65) The Participant appealed the denial of his
motion to vacate, arguing among other things that this
Order was a money judgment prohibited by ERISA.
That Order was affirmed by the Third Circuit, which
held:
While it would seem that such a money
judgment would originally be deemed a legal

6
judgment prohibited by ERISA, the District
Court was acting pursuant to our opinion in
Funk1 which permitted it to enforce a lien-byagreement against property other than the res to
which the lien attached. It follows logically that
the District Court needed to indicate the amount
of the lien in order to do so. That, together with
the underlying equitable relief requested by the
Plan, causes us to view the judgment at issue
here as one that merely monetizes the lien and
does not run afoul of ERISA.
Board. of Trustees of the Nat’l Elevator Industry.
Health Benefit Plan v. McLaughlin, 674 Fed. Appx.
189, 192 (3d Cir. 2017) (hereinafter McLaughlin II).
(App. 36) The Third Circuit affirmed the December 21,
2015 Order by ruling that it was not a money
judgment.
In the meantime, the Plan withheld payment of
medical expenses as a setoff against the Participant
and also against the Participant’s son, who, as a minor,
was eligible to receive benefits under his father’s plan.
The Third Circuit relied upon principals of insurance
law to hold that the son was in privity with the father
and so was estopped from challenging the set-off,
without referencing any point of equity or the law of
Trusts that allows set-offs, especially against persons
other than the debtor, and without considering the
Plan’s fiduciary duty owed to the son. McLaughlin v.

1

Funk v. CIGNA, 648 F.3d 182 (3d Cir. 2011), abrogated by
Montanile v. Board of Trustees of the National Elevator Industry
Health Benefit Plan, 136 S. Ct. 651, 656 at n.2

7
Board. of Trustees of the Nat’l Elevator Industry.
Health Benefit Plan, 686 Fed App’x 118 (3d Cir. 2017)
(McLaughlin III) (App. 20)
Which brings us to the instant case. McLaughlin II
was decided on January 6, 2017. On August 2, 2017,
the Clerk of the New Jersey Superior Court wrote to
the Participant to advise that the Plan had docketed
the December 15, 2017 District Court Order, something
which is available only for personal judgments as an
aid to execution. (App. 18) Participants had also
learned informally that the Plan continued to collect
employer contributions but not credit them towards the
Participant’s indebtedness and had roughly calculated
that, if this were true, the Plan may have recouped
three times the amount of the indebtedness.
The Participant moved before the District Court on
December 20, 2017 for relief from its December 15,
2015 Order because it was being misused by the Plan
in violation of the Third Circuit’s instruction that the
Order merely monetized a lien. The docketing of this
Order was something of which the Participant was
unaware prior to receipt of the August 2, 2017 letter
from the Clerk. The Participant also asked for leave to
conduct discovery as to whether the contributions by
his employer had wiped out his indebtedness. The
District Court denied the Participant’s motion as
untimely as to both points and the Third Circuit
affirmed on that basis. (App. 1)
The Third Circuit rejected the Participant’s
argument that the docketing of the judgment was an
actionable event for a motion for relief, and that the
one year period for a Rule 60(b) motion had expired

8
because the underlying District Court Order (though
not the Third Circuit opinion recharacterizing that
Order) had been entered more than a year earlier. The
Third Circuit also held that the eleven months plaintiff
had waited after the entry of the Order barred him
from asking for discovery on whether the set-off had
been satisfied.
The Participant petitions for certiorari from the
May 21, 2019 opinion of the Third Circuit. The Third
Circuit’s failure to protect the integrity of its ruling in
McLaughlin II, that the Order merely monetizing the
amount of its lien, means that the Third Circuit has
allowed the Plan a personal money judgment, contrary
to the statutory power of a federal courts under ERISA.
It is questionable whether ERISA permits set-offs,
which are a state law contract remedy rather than
equitable relief,2 but even if it does, there is no time
limit to argue that a judgment has been satisfied.
ERISA permits a participant to petition for equitable
relief against a plan, and the Third Circuit’s refusal to
allow the Participant to explore this possibility means
that the Plan is being unjustly enriched at the expense
of the employer and participant by keeping unearned
moneys rather than crediting them to the Participant’s
indebtedness.

2

Two of the cases abrogated in Montanile, 136 S. Ct. 656 at n.2
involved set-offs, Funk, supra, (set-off to remedy a mistaken
overpayment of benefits); Thurber v. Aetna Life Ins. Co., 712 F.3d
654 (2d Cir. 2013)(set off to compensate for receipt of state
disability payments). Because the money that was the subject of
the set-off was not in the participant’s possession, no lien could be
asserted against it.

9
REASONS FOR GRANTING THE PETITION
ERISA contains no provisions for liens, coordination
of benefits, or third-party actions. A plan is entitled to
“equitable relief” to “enforce the terms of the plan”. 29
U.S.C.S. § 1132(a)(3)(B)(ii). The Supreme Court has
defined “equitable relief”, in the context of actions by
ERISA plans against their participants for
reimbursement from tort recoveries, by a two-prong
test. The nature of the recovery is an equitable lien
upon a specific fund in the defendant’s possession,
rather than damages paid from general assets, and the
basis for the claim must be equitable restitution rather
than contractual restitution, that is, the participant
must have something that unjustly enriches him and
that belongs in good conscience to the Plan under the
rules of equity rather than contract. Great-West Life v.
Knudsen, 534 U.S. 204, 212-13, 122 S. Ct. 708, 714
(2002). The Supreme Court repeated this two-prong
test in Sereboff v. Mid Atlantic Medical Services, 547
U.S. 356, 363, 126 S. Ct. 1869, 1974 (2006) and
Montanile v. Board of Trustees of National Elevator
Industry, 136 S. Ct. 651, 657 (2016).
The Third Circuit disregarded both prongs. In
McLaughlin I, it required the Participant to pay
medical expenses to the Plan, despite acknowledging
that he had not recovered medical expenses from the
tortfeasor in the state tort action. McLaughlin I
awarded contractual restitution rather than equitable
restitution because the claim was based on the wording
of the plan rather than a finding that the defendant
held money that belonged in good conscious to the Plan.
Montanile later noted, “The plan may demand

10
reimbursement, however, when a participant recovers
money from a third party for medical expenses.” 136
S. Ct. 655 (emphasis added).
In McLaughlin II, the Third Circuit paid lip service
to the principal that ERISA Plans may not obtain
personal judgments within the "nature of the recovery"
prong, but when it came to enforcing that limitation, it
failed to follow through. A personal judgment against
the Participant for a sum certain is an award of
damages rather than an equitable lien to enforce rights
in an existing fund. The Third Circuit’s
recharacterizing the December 15, 2015 Order as a
monetization of a lien was strained, but the Participant
could hope that the Court would stand by it after they
were informed that the Plan had docketed this Order
as a judgment. The abstract of the docketed judgment
available through the Superior Court’s public records
website confirmed that judgment has been entered
against the defendants in the amount of $45,347.89.
(App. 19).
Federal judgments are considered “foreign
judgments” under New Jersey law, N.J. Stat. Ann.
2A:49A-26, and may be docketed as would a state court
judgment, whereupon they may be enforced in the
same manner as a state judgement. N.J. Stat. Ann
2A:49A-27. Only money judgments can be docketed.
N.J. Stat. Ann. 2A:16-11 and N.J. Stat. Ann. 2A:16-18
both refer to judgments and orders “for the payment of
money” as the only sort of judgments that can be
docketed with the Clerk of the New Jersey Superior
Clerk. Once the Plan docketed the Order, it assumed
the same effect as a money judgment and can be

11
executed upon as such. N.J. Stat. Ann. 2A:16-18
provides:
Every judgment, or order for the payment of
money, entered in the Superior Court, Chancery
Division, from the time of its entry upon the civil
judgment and order docket, and every decree or
order for the payment of money, of the former
court of chancery, from the time it was signed,
shall have the force, operation and effect of a
judgment of the Superior Court, Law Division,
and execution may issue thereon as in other
cases.
(emphasis added). A docketed judgment is also publicly
searchable as a personal money judgment. N.J. Stat.
Ann. 2A:16-11
Liens, on the other hand, are recorded with the
County Clerk, not with the Clerk of the Superior Court,
according to procedures that vary with the type of lien
being asserted. N.J. Stat. Ann. 46:26A-2; N.J. Stat.
Ann. 46:26A-4. When the Plan docketed the Order with
the Clerk of the Superior Court, rather than recorded
it with the County Clerk, it overreached because the
statutes that permit the docketing gave its equitable
lien the effect of a money judgment by operation of
law.3 It acted in defiance of the Third Circuits’s
instructions.

3

Montanile rejected the argument that, because equity courts have
historically been empowered to enter money judgments, such
judgments are “equitable relief” under ERISA, 136 S. Ct. 660-61.

12
The Plan’s action changed the nature of the Order
from the monitization of a lien to a money judgment,
thereby taking it outside of a Court’s authority under
ERISA. The Third Circuit held that the Participant’s
application to vacate was time barred under
Fed.R.Cv.P.60(b)(3) because it was made more than one
year after the entry of the Order and eleven months
after the Third Circuit’s affirmance (though only three
months after the Participant became aware that it had
been docketed). But Rule 60(c) requires only that the
motion be made within a reasonable time, and the
three months between the notification of the docketing
from the Clerk and the filing of the motion for relief is
hardly unreasonable, given that the integrity of the
Third Circuit’s order is at issue.
Information that was not in a useable form came
Participant’s way that the Plan was continuing to
collect contributions from his employer that were not
being credited towards his indebtedness to the Plan.
Though the Participant was aware that his medical
expenses were not being paid, he was not aware that
the Plan’s continued to receive employer contributions.
This meant that the Plan was collecting an unearned
premium and that his indebtedness was satisfied by his
employer (which may give the employer rights against
the Participant but does not mean that the Plan gets to
do with the money as it wants). The Participant asked
for an Order compelling discovery on this matter to
learn whether the employer’s contributions may have
reached the point where they satisfied his indebtedness
to the Plan.

13
Circuit precedent supported the Participant’s
request. Sunderland v. City of Philadelphia, 575 F.2d
1089 (3d Cir. 1978) observed that Rule 60(b)(5) motions
are not subject to time limits, noting “[A] district court
does not have discretion to require two satisfactions,
and the opposing party has suffered no prejudice from
the moving party’s delay in raising the satisfaction
issue.” 575 F.2d 1090-91. But, again, the Third Circuit
ruled that the Participant had waited too long before
asking for relief.
The Participant does not request that the Court
determine whether an ERISA plan is entitled to use
self-help contract remedies such as set-offs or
anticipatory breach. If one accepts that the only
remedies allowed under ERISA are those Congress
specified in 29 U.S.C.S. § 1132 (which does not allow
self-help), see Aetna Health v. Davila, 542 U.S. 200
(2004), then the Plan could not withhold medical
expense payments from the Participant and his son
and the Third Circuit should not have ratified such an
action in McLaughlin III. But as a practical matter, the
amount of medical expenses withheld to date probably
far exceeds the Participant’s $45,000 indebtedness to
the Plan, and the Participant wished only to obtain the
discovery necessary to show that the judgment has
been satisfied and the Plan must reinstated medical
benefits. Judgments will often not be satisfied until
some time after they have been entered, here, after
payments over several years. The appropriate judicial
response upon learning that a judgment may have been
satisfied is not to hold that the defendant is timebarred from investigating this possibility.

14
The Participant expects to argue before the District
Court, if this matter is remanded, that the Plan
continues to be unjustly enriched by accepting the
employers contributions without providing benefits in
return, and his statutory entitlement to equitable relief
requires that the Plan credit these payments to his
indebtedness. The Plan expects also to argue if this
matter is remanded that the District Court should
order that the its December 21, 2015 be removed from
the docket of the Clerk of the New Jersey Superior
Court because the docketing turned the Order
monetizing the lien into a judgment at law.
Certiorari should be granted because the Third
Circuit has repeatedly misapplied the Supreme Court’s
instructions on what constitutes equitable relief under
ERISA, calling for an exercise of the Court’s
discretionary supervisory power. An Order of the
District Court has been docketed as a personal money
judgment in favor of an ERISA Plan against a
Participant to enforce an obligation arising strictly in
law under the terms of the plan rather than in equity.
This exceeds the authority given by Congress to the
courts to enter only equitable relief to enforce
violations of ERISA plans. Though the indebtedness
has probably been satisfied, the Third Circuit has
refused to allow the Participant to investigate and has
instead allowed the Plan to continue to withhold
payment of medical expenses. The only explanation
given by the Third Circuit is that the plaintiff waited
too long under F.R.Cv.P. 60(b)(5) and (6) before making
applications that have no time limit under F.R.Cv.P.
60(c).

15
CONCLUSION
For the foregoing reasons, it is respectfully
requested that this petition for certiorari be granted.
Respectfully submitted,
Steven L. Kessel
Counsel of Record
Drazin & Warshaw, P.C.
25 Reckless Place
P.O. Box 8909
Red Bank, NJ 07701
(732)747-3730
slkessel@drazinandwarshaw.com
Counsel for Petitioner

